           t
                       ,-                           +-.


                            Closeout of M91030018

On Mar.' 4 , 1991, Office of Inspector General(O1G) received an




                                    -
the form a letter received            by
                                                          ged that the
                                                 "falsified" his
credentials on the cover sheet of this proposal. Specifically,
the cover sheet says that                has a "Ph.DW, while the
college catalog shows that his highest degree is not a Ph.D , but
an Ed.D.
On Apr. 12, 1991, I wrote to -        ' _  I  ,   requesting an
explanation which he gave on Apr. 19, 1991 in writing. In this
letter, he stated: " The alleged misrepresentation was merely a
mistake on her[his secretarylpart, brought about by the
pressures of time. It was a stupid and careless thing for me to
do, but there was no attempt on my part to defraud the
Foundation..     ...
               .In summary, I admit to making a serious error in
judgement, but I maintain that there was no attempt on my part to
mislead the Foundation."
The subject is clearly aware of his error in this matter. Since
his letter '@resents a satisfactory explanation of the situation
indicating no misconduct, the case now can be closed.


     1 May 1991


     CC:       Inspector General (IG)
               Assistant IG for Oversight
